          OFFICE OF
   THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



      REVIEW OF THE SOCIAL
    SECURITY ADMINISTRATION’S
       COST EFFECTIVENESS
      MEASUREMENT SYSTEM


 February 2002      A-07-00-10028
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY

MEMORANDUM

Date:   February 11, 2002                                                                          Refer To:

To:     Jo Anne B. Barnhart
        Commissioner

From:   Inspector General

Subject:Review  of the Social Security Administration’s Cost Effectiveness Measurement System
        (A-07-00-10028)


        OBJECTIVE
        Our objective was to assess the accuracy and use of the Social Security
        Administration’s (SSA) Cost Effectiveness Measurement System (CEMS) data.

        BACKGROUND
        In September 1982, SSA developed CEMS as a tool to measure the operating costs
        and cost effectiveness of each State Disability Determination Services (DDS). CEMS
        was also envisioned to provide the basis for establishing formal cost standards for
        DDSs. In 1997, SSA began revising CEMS to take advantage of technological
        enhancements and to make the system more user-friendly. SSA spent approximately
        $690,000 to revise CEMS, and it was released for production in August 1999. SSA also
        took responsibility for CEMS maintenance, which was previously performed by an
        outside contractor at an annual cost of approximately $300,000. In Fiscal Year
        (FY) 1999, SSA spent an estimated $106,000 to maintain CEMS (see Appendix D).

        SSA’s instructions1 require DDSs to: (1) input data into CEMS by the 45th day after the
        close of each quarter; (2) reconcile CEMS and Form SSA-4513 (Report of Obligations)
        data; and (3) provide CEMS reconciliation documents to the Regional Offices (RO) who,
        in turn, provide the documents to the CEMS Administrator in SSA’s Central Office (see
        Appendix C).


        1
         SSA, Office of Disability Programs, Office of Systems, CEMS Financial Procedures Handbook, revised
        December 1994.
Page 2 - Jo Anne B. Barnhart


SCOPE AND METHODOLOGY
Our audit was designed to review CEMS data for FYs 1999 and 2000, which should
have been available by May 2000 and May 2001, respectively. However, as of
June 2001, CEMS data for FYs 1999 and 2000 were not available. Therefore, we
reviewed the latest CEMS data available, which was for FY 1998.

To achieve our objective we:

·   reviewed sections of SSA’s Program Operations Manual System (POMS);

·   reviewed the CEMS Financial Procedures Handbook, A Guide to Using CEMS 2.0,
    and the CEMS Data Element Glossary;

·   interviewed SSA, Office of Disability (OD) and Office of Information Management
    staff in Baltimore, Maryland;

·   interviewed the 10 SSA RO CEMS Coordinators and obtained information on the
    reconciliation and use of CEMS data; and

·   compared selected FY 1998 CEMS data to the corresponding amounts reported on
    the Report of Obligations to validate the accuracy of CEMS data (see Appendix A).

Our audit was conducted between September 2000 and July 2001 in
Kansas City, Missouri and Baltimore, Maryland. The entity audited was OD under the
Deputy Commissioner for Disability and Income Security Programs. Our audit was
conducted in accordance with generally accepted government auditing standards.

RESULTS OF REVIEW
Our audit disclosed that CEMS has not achieved its intended purpose of measuring the
relative cost effectiveness of each DDS. Our audit also disclosed monetary differences
between CEMS and Form SSA-4513 data. Furthermore, CEMS data is not available
timely and is not widely used by SSA. Lastly, we found that unauthorized users can
access CEMS data.

CEMS HAS NOT ACHIEVED ITS INTENDED PURPOSE

CEMS was developed by SSA as a tool to measure the costs of operating each DDS,
and was to be used to develop a methodology for determining the relative cost
effectiveness of each DDS. CEMS was envisioned to have a significant impact on the
financial management of the disability determination process by providing the basis for
establishing formal cost standards for DDS operations. CEMS information was to
provide SSA with the information necessary to plan, budget, control, coordinate, and
evaluate the disability program.
Page 3 - Jo Anne B. Barnhart


SSA planned to use CEMS to provide cost data in a format that permitted reasonable
comparisons of DDS costs. CEMS was to employ cost modeling techniques that
improved the cost standard process and that fairly reflected local conditions in each
State. These techniques included case weighting, indexing of medical costs, and a
separate subsystem to record detailed medical information. However, OD discontinued
these techniques in 1991 because it could not derive a method of indexing costs that all
DDSs felt fairly reflected their local conditions.

DIFFERENCES EXISTED IN CEMS AND REPORT OF OBLIGATION DATA

SSA Could Not              For FY 1998, we compared the data on the Form SSA-4513
Explain Data               to the same data reported in CEMS. This comparison
Discrepancies              identified a difference of approximately $20 million (see
                           Appendix B). We requested the reconciliation documents for
                           the 52 DDSs2 from the CEMS Administrator to determine
whether there were valid reasons for the $20 million discrepancy.3 The CEMS
Administrator did not have the reconciliation documents. According to CEMS
instructions, the DDS is instructed to provide reconciliation documents to its SSA RO
CEMS Coordinator. The RO CEMS Coordinator is then supposed to forward the
reconciliation documents to the CEMS Administrator in SSA’s Central Office, who is
responsible for maintaining the documentation.

Since the CEMS Administrator did not have the reconciliation documents, we contacted
the 10 RO CEMS Coordinators for the documents. Five of the 10 RO CEMS
Coordinators (Regions 1, 2, 3, 4 and 6) stated that they received and retained the
reconciliations from all 28 of their respective DDSs. The remaining 5 RO CEMS
Coordinators were unable to provide the reconciliations for the following reasons:

·     The Region 5 CEMS Coordinator received reconciliations from only two of the
      six DDSs in the region;

·     The CEMS Coordinators from Regions 8, 9 and 10 did not receive reconciliations
      from any of their 14 DDSs; and

·     The Region 7 CEMS Coordinator received but did not retain the reconciliations from
      the region’s four DDSs.

Without the reconciliation documents from all 52 DDSs, we were unable to determine
the reasons for the $20 million discrepancy. Therefore, we were unable to determine
the accuracy of CEMS data for FY 1998.


2
    There are 54 DDSs; however, the Virgin Islands and Guam DDSs do not use CEMS.
3
  Valid reasons for differences in CEMS and Form SSA-4513 data include, but are not limited to, new
obligations/de-obligations, obligated costs not reported on the Report of Obligations, CEMS adjustments
for prior quarters, employee costs for "borrowed" and "loaned" personnel, etc.
Page 4 - Jo Anne B. Barnhart


CEMS INFORMATION IS NOT AVAILABLE TO USERS TIMELY

FYs 1999 and 2000         As of June 2001, CEMS data for FYs 1999 and 2000 were
CEMS Data Is Not          not available. The CEMS data for FYs 1999 and 2000 should
Available                 have been available by May 2000 and May 2001,
                          respectively. The FY 1999 and FY 2000 CEMS data were not
                          available for our review because several DDSs had not
entered the required information and CEMS does not allow review of data until all DDSs
have completed input.

                                DDSs THAT HAD       DDSs THAT HAD
                      SSA        NOT ENTERED       NOT ENTERED ALL
                     REGION       ALL FY 1999           FY 2000
                                DATA INTO CEMS      DATA INTO CEMS
                    Region 1                              Maine
                                                     New Hampshire
                                                      Rhode Island
                    Region 2                           New York
                    Region 3                            Delaware
                    Region 4                           Tennessee
                                                        Kentucky
                                                       Mississippi
                    Region 5                             Indiana
                                     Indiana           Minnesota
                    Region 6
                    Region 7                            Missouri
                    Region 8                            Colorado
                                    Colorado          North Dakota
                                  North Dakota        South Dakota
                                  South Dakota            Utah
                    Region 9                            California
                                                         Nevada
                                     Arizona             Arizona
                    Region 10                          Washington

Even though the redesigned CEMS was placed in production in August 1999 and was
installed at 52 DDSs, the system continues to experience problems. OD stated that
some of the problems require Office of Systems’ (OS) resolution, however, the
necessary OS resources were not available. The problems that CEMS continues to
face are:

·   Part of the CEMS software resides on the individual workstations. Because of the
    new design of CEMS, each workstation requires a separate installation, program
    updates must be installed on each workstation, and any additional software or other
    changes that are made to the workstation can result in the system becoming non-
    compatible with CEMS. While CEMS has been installed in the 52 DDSs, some
    programming problems still exist and required updates have not been installed. The
    above problems require OS’ assistance.
Page 5 - Jo Anne B. Barnhart


·   While the redesigned CEMS is more user friendly, the system itself is much more
    complex than its predecessor. Installation and maintenance of CEMS involves a
    significant time investment on the part of local area network coordinators. In
    addition, a significant time investment is required by the CEMS Administrator to
    ensure that systems problems are identified and resolved.

CEMS INFORMATION IS NOT WIDELY USED

CEMS was developed as a tool that SSA could use to measure the cost effectiveness of
each State DDS. However, CEMS has not achieved its intended purpose because SSA
never developed formal cost standards or methodologies for determining the cost
effectiveness of each DDS. Therefore, the usefulness of CEMS management
information is limited.

·   Six of the 10 RO CEMS Coordinators stated they had not used CEMS data for over
    1 year. One Coordinator indicated that CEMS information was used.
    Three Coordinators indicated that, if the information were timely, it would be used.

·   OD staff stated that CEMS data are used for limited purposes, such as estimating
    the cost of proposed legislation. However, its use is limited because the information
    is not accurate and some of the information could be obtained from other sources.
    CEMS information is not used for budget-related purposes and therefore, is not
    shared with other SSA components, such as the Deputy Commissioner for Finance,
    Assessment, and Management.

UNAUTHORIZED USERS CAN ACCESS CEMS

We found that DDS’ data entry logons, including passwords, are posted on an Intranet
site and available to anyone with Intranet access. This site also contains instructions for
installing CEMS. The one CEMS safeguard is that once the CEMS information is input
and locked by the DDSs, only the CEMS Administrator can alter the information.
However, with the passwords available on the Intranet, there is the possibility for
unauthorized alteration of CEMS data prior to the data being locked.

    Ø By utilizing the instructions provided on the Intranet site, we successfully installed
      CEMS. Then, using the passwords at the Intranet site, we accessed both the
      data entry and analysis applications of CEMS.

CONCLUSIONS AND RECOMMENDATIONS
Our objective was to assess the accuracy and use of CEMS data; however, the
reconciliation information needed to assess the accuracy of CEMS data was not
available. Although we identified a discrepancy of approximately $20 million between
the FY 1998 CEMS and the Form SSA-4513 data, the unavailability of reconciliation
information prevented us from determining whether this discrepancy was valid. As far
Page 6 - Jo Anne B. Barnhart


as the use of CEMS data, we found that CEMS data are not widely used by SSA and
the data are not timely. Furthermore, we found that unauthorized users can access—
and possibly alter—CEMS data.

We also found that CEMS has not achieved its intended purpose because SSA was
unsuccessful in developing formal cost standards or methodologies for determining the
cost effectiveness of each DDS. CEMS could be a valuable management information
tool if SSA could design the system to allow for measuring the cost effectiveness of
DDSs. Such a system is needed—given the complexity and importance of monitoring
DDS performance. However, in its current design, CEMS does not meet its intended
purpose and the data are not timely enough to be valuable to the Agency. Therefore,
we question whether the monies spent by SSA to maintain CEMS—and the time
expended by the DDSs on the labor-intensive input of CEMS data—are justified.

We recommend that SSA perform a cost-benefit analysis to determine whether CEMS
should continue based on a comparison of CEMS maintenance, oversight, and input
costs to the use of CEMS data. If the cost-benefit analysis supports the continuation of
CEMS, take the following actions:

   a) Resolve CEMS program problems and ensure that CEMS is properly installed at
      all DDSs.
   b) Update the CEMS Financial Handbook Guidelines to correspond with the revised
      CEMS system and publish the guidelines in the POMS section reserved for
      CEMS.
   c) Ensure that SSA and DDS staff follows CEMS guidelines.
   d) Remove CEMS passwords and installation instructions from the Intranet site and
      issue new passwords to authorized users.
   e) Develop formal cost standards or methodologies for determining the cost
      effectiveness of each DDS.

AGENCY COMMENTS
In response to our draft report, SSA decided to discontinue CEMS. Specifically, SSA
stated that a cost benefit analysis would only duplicate the work performed by the
auditors and would not support the continuation of CEMS. SSA further stated it is
already taking the necessary steps to discontinue the system. (See Appendix E for
SSA’s comments.)




                                            James G. Huse, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Comparison of Cost Effectiveness Measurement System and Report of
             Obligations Data for Fiscal Year 1998

APPENDIX C – Overview of the Cost Effectiveness Measurement System Process

APPENDIX D – Estimation of the Fiscal Year 1999 Costs to Maintain the Cost
             Effectiveness Measurement System

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
CEMS            Cost Effectiveness Measurement System
DDS             Disability Determination Services
Form SSA-4513   Report of Obligations
FY              Fiscal Year
OD              Office of Disability
OS              Office of Systems
POMS            Program Operations Manual System
RO              Regional Office
SSA             Social Security Administration
                                                                                Appendix B
Comparison of Cost Effectiveness
Measurement System and Report of
Obligations Data for Fiscal Year 1998
                                          Totals from SSA Form       Difference -
      Disability    Total Costs            4513 (Excluding Non        CEMS Data
    Determination     from Data           Federal Workload and       Over (Under)      Regional
                                                                                                 1
      Services    Validation Forms       AOP Pilot Project Costs)   SSA Form 4513     Difference
    Connecticut        $11,917,994                 $12,130,470          $(212,476)
    Maine                 6,179,353                  6,348,552           (169,199)
    Massachusetts        26,399,434                 25,540,922            858,512
    New Hampshire         3,326,350                  3,170,030            156,320
    Rhode Island          6,586,767                  5,817,300            769,467
    Vermont               2,312,068                  2,310,171              1,897
                 Region 1                                                              $1,404,521
    New Jersey              35,535,964              34,584,779             951,185
    New York              138,441,018              135,013,533           3,427,485
    Puerto Rico             12,338,682              12,506,016            (167,334)
                    Region 2                                                           $4,211,336
    District of
    Columbia                 3,585,580               3,598,715             (13,135)
    Delaware                 3,560,018               3,835,725            (275,707)
    Maryland                17,671,044              17,360,520             310,524
    Pennsylvania            59,768,458              58,648,569           1,119,889
    Virginia                25,399,686              25,378,422              21,264
    West Virginia           15,088,633              15,040,418              48,216
                    Region 3                                                           $1,211,051
    Alabama                28,183,657               28,234,731             (51,074)
    Florida                60,044,943               62,201,716          (2,156,773)
    Georgia                44,361,768               42,456,708           1,905,060
    Kentucky               31,169,720               31,679,505            (509,785)
    Mississippi            19,534,184               19,512,394              21,790
    North Carolina         37,336,378               37,428,329             (91,951)
    South Carolina         19,847,026               19,580,816             266,210
    Tennessee              29,937,575               29,570,817             366,758
                   Region 4                                                             $(249,766)




1
  The difference could represent such items as new obligations/de-obligations, obligated costs not
reported on the Form SSA-4513 (Report of Obligations) Cost Effectiveness Measurement System
(CEMS) adjustments for prior quarters, employee costs for "borrowed" and "loaned" personnel, etc. Such
issues should be addressed in the narratives attached to the CEMS Reconciliations; however, the Social
Security Administration (SSA) could not provide the reconciliations.


                                                  B-1
                                    Totals from SSA Form                Difference -
      Disability  Total Costs from   4513 (Excluding Non                 CEMS Data
    Determination Data Validation   Federal Workload and                Over (Under)       Regional
      Services         Forms       AOP Pilot Project Costs)            SSA Form 4513       Difference
    Illinois               62,033,920                  62,532,675             (498,755)
    Indiana                24,407,163                  24,727,373             (320,210)
    Michigan               57,233,873                  55,946,442            1,287,431
    Minnesota              16,952,982                  16,193,461              759,521
    Ohio                   57,993,236                  58,085,459              (92,223)
    Wisconsin              19,409,237                  18,271,667            1,137,570
                   Region 5                                                                 $2,273,334
    Arkansas               15,024,703                  15,465,516             (440,813)
    Louisiana              30,507,918                  30,069,372              438,546
    New Mexico              9,413,859                   9,419,605               (5,746)
    Oklahoma               12,840,671                  12,880,525              (39,854)
    Texas                  81,258,292                  77,604,283            3,654,009
                   Region 6                                                                 $3,606,142
    Iowa                   11,437,668                  11,431,271                6,397
    Kansas                 13,164,714                  11,877,523            1,287,191
    Missouri               30,065,501                  28,274,386            1,791,115
    Nebraska                5,564,680                   5,564,680                   (0)
                   Region 7                                                                 $3,084,703
    Colorado               13,003,090                  12,814,572             188,518
    Montana                 3,428,753                   3,434,660              (5,907)
    North Dakota            1,621,275                   1,490,384             130,891
    South Dakota            2,227,807                   2,352,957            (125,150)
    Utah                    6,417,846                   6,530,944            (113,098)
    Wyoming                 1,890,196                   1,804,360              85,836
                   Region 8                                                                   $161,090
    Arizona                17,223,035                 17,536,440              (313,405)
              2
    California           161,147,442                 156,880,555             4,266,887
    Hawaii                  4,218,715                  4,190,100                28,615
    Nevada                  5,843,926                  5,833,111                10,815
                   Region 9                                                                 $3,992,912
    Alaska               4,024,595                      4,094,017             (69,422)
    Idaho                3,938,063                      3,936,797               1,266
           2
    Oregon             17,545,701                      17,545,723                 (22)
    Washington         23,819,097                      23,272,795             546,302
               Region 10                                                                      $478,124

         Totals        $1,352,184,258              $1,332,010,811                          $20,173,447




2
 The total costs from SSA Forms 4513 for the States of California and Oregon do not reflect any
adjustments that were identified during recent SSA, Office of the Inspector General audits of their
Disability Determination Services’ administrative costs.


                                                    B-2
                                                                                    Appendix C
Overview of the Cost Effectiveness
Measurement System Process
                                  Disability Determination Services (DDS)

                                                                              DDSs enter information
                                                                                quarterly into CEMS,
                                                                              prepare quarterly
                                                                                            .    CEMS
                                                                            reconciliations, and forward
                                                                             the reconciliations to their
                                                                               respective RO CEMS
                                                                                   Coordinators.



                                        Quarterly Reconciliations




 Office of Systems Support
            Staff
                                           Regional Office (RO)
                                              Coordinators
                                                                              RO CEMS Coordinators
                                                                               review the quarterly
                                                                                reconciliations, and
                                                                                forward them to the
                                                                               CEMS Administrator.



      Office of Systems
    provides all users with
  limited technical support
 for the Cost Effectiveness              Quarterly Reconciliations
    Measurement System
  (CEMS) system, helping
  with the initial installation
       and subsequent
          revisions.
                                           CEMS Administrator

                                                                                CEMS Administrator
                                                                             provides assistance to the
                                                                                   DDSs and RO
                                                                               Coordinators, corrects
                                                                              errors identified after the
                                                                             CEMS reconciliations are
                                                                             completed, maintains the
                                                                               CEMS Database, and
                                                                                  keeps a file of the
                                                                              quarterly reconciliations.
                                                                                Appendix D
Estimate of the Fiscal Year 1999 Costs to
Maintain the Cost Effectiveness
Measurement System
           COST EFFECTIVENESS MEASUREMENT SYSTEM
                     MAINTENANCE COSTS
                                                                                    Cost
        Entity                  Explanation of Cost Estimation                    Estimate
                          The June 8, 2000 Federal Register provided the
                          results of a Social Security Administration (SSA)
                          survey of DDSs related to CEMS. According to the
       Disability
                          survey, CEMS input required 6 hours of DDS staff
     Determination
                          time, quarterly. This approximates to 1,248 DDS
    Services (DDS)
                          staff hours (52 DDSs times 4 quarters times 6 hours).
                          Based on these hours, the survey estimated DDS
                          input costs of $25,985 annually.                          $25,985
                          One RO CEMS Coordinator estimated that he spent
                          2 hours each quarter per DDS to perform his duties.
  Regional Office (RO)    This equates to a total estimated annual burden of
   Cost Effectiveness     416 hours for all 52 DDSs (52 DDSs times 2 hours
  Measurement System      times 4 quarters). Using the 1999 General Schedule
  (CEMS) Coordinators     $25.78 hourly wage for a Grade 13 (the grade of the
                          RO CEMS Coordinator we contacted), we calculated
                          estimated costs of $10,724 ($25.78 times 416 hours).       10,724
                          According to the current CEMS Administrator, he
                          spends as much as 50 percent of his time on CEMS-
                          related activities. Using the 1999 General Schedule
  CEMS Administrator
                          annual salary for a Grade 13 position, we calculated
                          estimated costs of $26,896 ($53,792 times
                          50 percent).                                               26,896
                          According to OS, it spent 1,256 hours on CEMS-
                          related activities during Fiscal Year (FY) 1999. OS
                          also provided the average annual salary of its
                          employees. Using this information, we estimated an
                          average hourly rate of $33.75 for OS employees and
 Office of Systems (OS)
                          an estimated annual cost of $42,390.
         Support
                          NOTE: In the OS cost estimate, we did not use the
                          10,438 hours OS spent on developing and improving
                          the CEMS during FY 1999 since it is not a recurring
                          expenditure.                                               42,390
 Total Estimated Cost                                                              $105,995
                  Appendix E
Agency Comments
                                                        ~    SECD
                                                     ~C;            ~
                                                    ~~         ~~
                                                            usA.~
                                                    ~      Ullfll ~~
                                                        ""JsTi>

                                        SOCIAL              SECURITY


MEMOR,~NDUM                                                                     30257-24-677

          JJanuary   9,   2002                                                   Refer To: SlJ-3

To:




Subject   Office of the Inspector General Draft (OIG) Report: "Review of Social Security Administration's
          Cost Effectiveness Measurement System" (A-O7-00-l0028}-INFORMATION


          We appreciate the OIG's efforts in conducting this review. Our comments on the report
          recommendations are attached.

          Pleaselet us know if we may be of further assistance. Staff questions may be referred to
          Trudy Williams at extension 50380.

          Attachment:
          SSA Response
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“REVIEW OF THE SOCIAL SECURITY ADMINISTRATION’S COST EFFECTIVENESS
MEASUREMENT SYSTEM” (A-07-00-10028)

Thank you for the opportunity to review and comment on this draft report. Our comments on the
report recommendations are detailed below.

Recommendations

Perform a cost-benefit analysis (CBA) to determine whether the Cost Effectiveness
Measurement System (CEMS) should continue based on a comparison of CEMS maintenance,
oversight, and input costs to the use of CEMS data.

If the cost-benefit analysis supports the continuation of CEMS, take the following actions:
a) Resolve CEMS program problems and ensure that CEMS is properly installed at all Disability
Determination Services (DDSs); b) update the CEMS Financial Handbook Guidelines to
correspond with the revised CEMS system and publish the guidelines in the Program Operations
Manual System (POMS) section reserved for CEMS; c) ensure that SSA and DDS staff follow
CEMS guidelines; d) remove CEMS passwords and installation instructions from the Intranet
site and issue new passwords to authorized users; and e) develop formal cost standards or
methodologies for determining the cost effectiveness of each DDS.

Comment

We believe that a CBA would only duplicate the work the auditors have already done and would
not support the continuation of CEMS. We believe that the audit findings are sufficient enough
to support a case for discontinuation of CEMS, and we are already taking the necessary steps to
discontinue the system.

We will begin exploring alternatives to CEMS for more cost-effective methods to accomplish the
original goals of CEMS.




                                              E-2
                                                                       Appendix F
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Rona Rustigian, Director, Disability Program Audit Division (617) 565-1819

   Mark Bailey, Deputy Director, Disability Program Audit Division (816) 936-5591

Staff Acknowledgments
In addition to those named above:

   Ronald Bussell, Lead Auditor

   Kenneth Bennett, Auditor

   Richard Reed, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact Office of the Inspector General's Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-07-00-10028.
                           DISTRIBUTION SCHEDULE

                                                                         No. of
                                                                         Copies

Commissioner of Social Security                                            1
Management Analysis and Audit Program Support Staff, OFAM                 10
Inspector General                                                          1
Assistant Inspector General for Investigations                             1
Assistant Inspector General for Executive Operations                       3
Assistant Inspector General for Audit                                      1
Deputy Assistant Inspector General for Audit                               1
 Director, Data Analysis and Technology Audit Division                     1
 Director, Financial Audit Division                                        1
 Director, Western Audit Division                                          1
 Director, Southern Audit Division                                         1
 Director, Northern Audit Division                                         1
 Director, General Management Audit Division                               1
Issue Area Team Leaders                                                   25
Income Maintenance Branch, Office of Management and Budget                 1
Chairman, Committee on Ways and Means                                      1
Ranking Minority Member, Committee on Ways and Means                       1
Chief of Staff, Committee on Ways and Means                                1
Chairman, Subcommittee on Social Security                                  2
Ranking Minority Member, Subcommittee on Social Security                   1
Majority Staff Director, Subcommittee on Social Security                   2
Minority Staff Director, Subcommittee on Social Security                   2
Chairman, Subcommittee on Human Resources                                  1
Ranking Minority Member, Subcommittee on Human Resources                   1
Chairman, Committee on Budget, House of Representatives                    1
Ranking Minority Member, Committee on Budget, House of Representatives     1
Chairman, Committee on Government Reform and Oversight                     1
Ranking Minority Member, Committee on Government Reform and Oversight      1
Chairman, Committee on Governmental Affairs                                1
Ranking Minority Member, Committee on Governmental Affairs                 1
                                                                             Page 2

Chairman, Committee on Appropriations, House of Representatives                1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                      1
Chairman, Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Committee on Appropriations, U.S. Senate              1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate                1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                   1
Chairman, Committee on Finance                                                 1
Ranking Minority Member, Committee on Finance                                  1
Chairman, Subcommittee on Social Security and Family Policy                    1
Ranking Minority Member, Subcommittee on Social Security and Family Policy     1
Chairman, Senate Special Committee on Aging                                    1
Ranking Minority Member, Senate Special Committee on Aging                     1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                               1
President, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                 1
Social Security Advisory Board                                                 1
AFGE General Committee                                                         9
President, Federal Managers Association                                        1
Regional Public Affairs Officer                                                1


Total                                                                         97
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
